Nos. 19-267, 19-348

In the Supreme Court of the United States
__________________

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
__________________
ST. JAMES SCHOOL,
v.

Petitioner,

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,
Respondent.
__________________
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit

__________________

BRIEF OF AMICUS CURIAE FIRST LIBERTY
INSTITUTE IN SUPPORT OF PETITIONERS

__________________

KELLY J. SHACKELFORD
Counsel of Record
HIRAM S. SASSER, III
MICHAEL BERRY
STEPHANIE N. TAUB
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae
February 10, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Free Exercise Clause Protects Not Only
the Right of Conscience, but Also the Right to
Religious Autonomy. . . . . . . . . . . . . . . . . . . . . 4

II.

The Establishment Clause Also Protects
Religious Autonomy by Guarding Against
State Control of How Religious Organizations
Operate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

III.

The Ministerial Exception Is Grounded
Primarily in the Right to Religious Autonomy
..................................... 8

IV.

Because of the Purpose of the Ministerial
Exception, a Minister Must Be Defined by
Virtue of Religious Functions . . . . . . . . . . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF AUTHORITIES
CASES
Corp. of Presiding Bishop of the Church of Jesus
Christ of Latter-Day Saints v. Amos,
483 U.S. 327 (1987). . . . . . . . . . . . . . . . . . . . . 9, 11
Employment Division v. Smith,
494 U.S. 872 (1990). . . . . . . . . . . . . . . . . . . . . . . . 4
Gonzalez v. Roman Catholic Archbishop of Manila,
280 U.S. 1 (1929). . . . . . . . . . . . . . . . . . . . . . . . . . 7
Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC, 565 U.S. 171 (2012) . . . . 6, 7, 9, 10
Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . 6, 7, 8, 9
Kreshik v. Saint Nicholas Cathedral,
363 U.S. 190 (1960). . . . . . . . . . . . . . . . . . . . . . . . 7
NLRB v. Catholic Bishop of Chi.,
440 U.S. 490 (1979). . . . . . . . . . . . . . . . . . . . . . . . 5
Presbyterian Church in the U.S. v. Mary Elizabeth
Blue Hull Mem’l Presbyterian Church,
393 U.S. 440 (1969). . . . . . . . . . . . . . . . . . . . . . . . 7
Serbian E. Orthodox Diocese for the U.S. &
Can. v. Milivojevich, 426 U.S. 696 (1976) . . . . . . 7
Spencer v. World Vision, Inc.,
633 F.3d 723 (9th Cir. 2011). . . . . . . . . . . . . . . . 13

iii
Stately v. Indian Community School of
Milwaukee, Inc.,
351 F.Supp.2d 858 (E.D. Wis. 2004) . . . . . . . . . 13
Watson v. Jones,
80 U.S. 679 (1872). . . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTES
42 U.S.C. § 2000bb-1 . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 2000cc-5(7)(A) . . . . . . . . . . . . . . . . . . . . . 4
OTHER AUTHORITIES
Espinoza v. Montana Department of Revenue, Oral
Argument Transcript, No. 18-1195 (Jan. 22,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Douglas Laycock, Church Autonomy Revisited, 7
Geo. J. L. & Pub. Pol’y 253 (Winter 2009) . . 2, 6, 8
Douglas Laycock, Towards a General Theory of the
Religion Clauses: The Case of Church Labor
Relations and the Right to Church Autonomy, 81
Colum. L. Rev. 1373 (1981) . . . . . . . . . . . . passim
Michael W. McConnell & Luke W. Goodrich, On
Resolving Church Property Disputes, 58 Ariz. L.
Rev. 307 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTEREST OF AMICUS CURIAE
First Liberty Institute is a nonprofit, public interest
law firm dedicated to defending religious liberty for all
Americans.1 First Liberty provides pro bono legal
representation to individuals and institutions of all
faiths — Catholic, Islamic, Jewish, Native American,
Protestant, the Falun Gong, and others.
As an amicus, First Liberty maintains an interest in
preserving the freedom of all faith traditions to convey
their religious missions to the next generation. The
religious ministries and schools that we represent seek
the freedom to operate in communities that share a
common commitment to their religious beliefs and
principles, independent of government control and
intervention. One of the core features of the First
Amendment is that the government must respect the
autonomy of religious ministries and schools.
SUMMARY OF ARGUMENT
As explained by Professor Douglas Laycock’s
influential 1981 article Towards a General Theory of
the Religion Clauses, the right to religious autonomy
(which he calls church autonomy) is an often
overlooked right guaranteed by the First Amendment.2
1

Attorneys from First Liberty Institute authored this brief as
amicus curiae. No attorney for any party authored any part of this
brief, and no one apart from amicus curiae made any financial
contribution toward the preparation or submission of this brief. All
parties have consented to the filing of this brief and were timely
notified.

2

Douglas Laycock, Towards a General Theory of the Religion
Clauses: The Case of Church Labor Relations and the Right to
Church Autonomy, 81 Colum. L. Rev. 1373 (1981).

2
According to the paper, the Free Exercise Clause
protects religious liberty in three ways. First, it
protects the acts of an individual’s religious exercise
itself, such as the right to pray, worship, etc. Next, it
protects the right to exercise religion in community,
which requires at a minimum the freedom to make
doctrinal decisions and the freedom to choose how to
structure one’s own institutions to best accomplish
their religious goals (the right to religious autonomy).
And finally, the Free Exercise Clause protects the right
not to be forced by government to violate one’s
conscience (the right to conscientious objection).3
Though the focus of religious liberty litigation – then as
now – is often on conscientious objection litigation
designed to protect people and groups from being forced
to violate their sincere religious beliefs, it is important
to recognize that the Free Exercise Clause protects all
three of these fundamental interests.
As Professor Laycock acknowledged in a subsequent
paper, the right to religious autonomy also safeguards
important Establishment Clause interests.4 The clause
prohibits the government from establishing a church,
which would include interfering with how religious
organizations have chosen to exercise their religion.
The right to religious autonomy protects the separation
of church and state by requiring the government not to

3
4

Id. at 1388-90.

Douglas Laycock, Church Autonomy Revisited, 7 Geo. J. L. & Pub.
Pol’y 253, 260, 262 (Winter 2009).

3
usurp the religious functions of religious organizations
and enabling religious organizations to be left alone.5
A religious organization’s right to choose who will
convey its message is one of the most important
features of religious autonomy. After all, religious
leaders and teachers are the people most responsible
for carrying out the missions of mosques, synagogues,
churches, and other religious ministries. The First
Amendment’s ministerial exception doctrine is the
recognition of a religious organization’s right to choose
its own ministers and not have an unwanted minister
forced upon it by the government.
Although the ministerial exception may also protect
the right of conscience, it is fundamentally grounded in
the right of religious organizations to an independence
from government control. Acknowledging this
fundamental purpose of the ministerial exception will
help the Court define the scope of how the ministerial
exception should be applied here.
Viewing the ministerial exception in the larger
context of the religious autonomy doctrine makes it
clear that a minister must be defined primarily by the
performance of religious functions, rather than by
indicators of religious function such as religious titles.

5

Professor Laycock notes that rights under the Religious Clauses
sometimes may be overcome by government, but only for
sufficiently compelling reasons. Laycock, Towards a General
Theory of the Religion Clauses, supra, at 1374.

4
ARGUMENT
I.

The Free Exercise Clause Protects Not
Only the Right of Conscience, but Also the
Right to Religious Autonomy.

Not all religious liberty violations involve harm to
a person’s conscience. Conscience harms arise when the
government compels a person or a group of people to do
something their religion forbids or to refrain from doing
something that their religion mandates under the
threat of penalty. Such coerced violation of one’s
sincerely-held beliefs is a particularly egregious burden
on religious believers, but it is not the only way
religious liberty may be infringed.6
The Free Exercise Clause guards against other
kinds of harm as well. For instance, religious
organizations may be harmed by government
interference itself, regardless of whether the harm also
burdens the conscience. Most decisions by religious
organizations are made to further their religious goals,
but not all of these decisions are required by their
religion.7 For instance, a religious ministry may be
6

After Employment Division v. Smith, 494 U.S. 872 (1990), most
conscientious objection claims now arise under the Religious
Freedom Restoration Act, 42 U.S.C § 2000bb-1, rather than under
the Free Exercise Clause.

7

The Religious Land Use and Institutionalized Persons Act, meant
to restore interests protected by the Free Exercise Clause preSmith, defines “religious exercise” to include “any exercise of
religion, whether or not compelled by, or central to, a system of
religious belief.” 42 U.S.C. § 2000cc-5(7)(A); see also Laycock,
Towards a General Theory of the Religion Clauses, supra, at 1390
(making the point that religious exercise may be burdened even if
that exercise is not compelled or required by religious doctrine).

5
motivated by its faith to help find homes for children in
need of adoption or foster care. That ministry may not
believe itself to be violating its conscience if it is
pressured to exit that field and instead focus its
charitable calling in another direction. In this
situation, the ministry still faces a very real burden. It
is harmed by the governmental interference with the
religious organization’s desired way to achieve its
goals, even if there is no compelled violation of
conscience.8 The religious autonomy doctrine recognizes
that religious organizations should be free to organize
in the way they choose, and need not make the
argument that they are required by religious doctrine
to organize in that specific way.
Moreover, requiring a religious ministry to prove to
a court that its religion requires a particular course of
action in order to receive protection adds an extra layer
of government interference and invites differential
treatment among different faiths. Not all religious
traditions are structured in such a way as to have firm
rules or doctrines. Judicial scrutiny into whether a
religion truly requires a course of action is asking
secular courts to weigh in on ecclesiastical decisions
that they are not competent to make. The mere process
of judicial scrutiny into religious decisions invites such
problems. See NLRB v. Catholic Bishop of Chi., 440
U.S. 490, 502 (1979) (“It is not only the conclusions that
may be reached by the Board which may impinge on
rights guaranteed by the Religion Clauses, but also the
very process of inquiry leading to findings and
conclusions.”).
8

Very often, both forms of harm may be present.

6
For these reasons, the Free Exercise Clause protects
religious autonomy — the freedom to make internal
decisions, “to select their own leaders, define their own
doctrines, resolve their own disputes, and run their
own institutions.”9 In short, the First Amendment
protects the “power to decide for themselves, free from
state interference, matters of church government as
well as those of faith and doctrine.” Hosanna-Tabor
Evangelical Lutheran Church & Sch. v. EEOC, 565
U.S. 171, 185-86 (2012) (quoting Kedroff v. Saint
Nicholas Cathedral of Russian Orthodox Church in N.
Am., 344 U.S. 94, 116 (1952)).
II.

The Establishment Clause Also Protects
Religious Autonomy by Guarding Against
State Control of How Religious
Organizations Operate.

The Establishment Clause also necessitates the
religious autonomy doctrine. The clause prevents
governments from breaching the wall of separation
between church and state to control a religious
organizations’ internal decisions, such as who should
teach the faith or how it should be taught. “When
government decides a religious question and enforces
its decision,” it violates not only the Free Exercise
Clause, it also “violates the Establishment Clause by
performing an essentially religious function.”10
Evaluating the Court’s religious autonomy decisions
shows that they are based in both Religion Clauses.
9

Laycock, Towards a General Theory of the Religion Clauses,
supra, at 1389 (footnotes omitted).
10

Laycock, Church Autonomy Revisited, supra, at 264.

7
Most of the religious autonomy cases that have made
their way to the Supreme Court involve church schisms
and property disputes. See Watson v. Jones, 80 U.S.
679, 727 (1872); Gonzalez v. Roman Catholic
Archbishop of Manila, 280 U.S. 1 (1929); Kedroff v. St.
Nicholas Cathedral of Russian Orthodox Church in N.
Am., 344 U.S. 94 (1952); Kreshik v. Saint Nicholas
Cathedral, 363 U.S. 190 (1960); Presbyterian Church in
the U.S. v. Mary Elizabeth Blue Hull Mem’l
Presbyterian Church, 393 U.S. 440 (1969); Serbian E.
Orthodox Diocese for the U.S. & Can. v. Milivojevich,
426 U.S. 696 (1976). As summarized by Professor
Michael McConnell and Luke Goodrich, “[t]hese
decisions constitutionalized two related principles:
first, that civil courts should not decide ecclesiastical
questions; and second, that churches have a First
Amendment right to be free from state interference in
their internal affairs.”11 When courts decide
ecclesiastical questions, it violates the Establishment
Clause by entangling the government in religious
matters; and the Free Exercise Clause protects the
converse right to be free government interference in
internal affairs.12
Recently, in Hosanna-Tabor, this Court reflected
that prior religious autonomy decisions radiate “a spirit
of freedom for religious organizations” and “an
independence from secular control or manipulation.”
Hosanna-Tabor, 565 U.S. at 185-86 (quoting Kedroff,

11

Michael W. McConnell & Luke W. Goodrich, On Resolving
Church Property Disputes, 58 Ariz. L. Rev. 307, 316 (2016).

12

Id.

8
344 U.S. at 116). In summary, both Religion Clauses
work together to protect religious autonomy.
III.

The Ministerial Exception Is Grounded
Primarily in the Right to Religious
Autonomy.

The Free Exercise Clause protects mosques,
synagogues, churches, and other religious
organizations’ right to freely convey their religious
teachings through their ministers. The Establishment
Clause prevents governments from breaching the wall
of separation between church and state to intrude upon
these religious organizations’ interactions with their
ministers. Rooted in both of these religion clauses,13 the
“ministerial exception” bars courts from hearing claims
involving the church-minister employment relationship
in order to ensure that religious organizations retain
the right to choose their ministers. This independence,
this religious autonomy, is the key principle that
grounds the ministerial exception.
Because the harm to be avoided is the harm that
comes from government interference with internal
religious affairs, the ministerial exception applies to all
aspects of the employment relationship between a
religious organization and its ministers. A religious
organization need not point to a particular religious
rationale for its employment decisions in order to
receive constitutional protection. As the unanimous
13

Laycock, Church Autonomy Revisited, supra, at 262 (“Imposing
unwanted religious leaders is first and foremost a Free Exercise
Clause problem. But it is also an Establishment Clause problem,
because in the established church, the government picks the
ministers.”).

9
Supreme Court held: “The purpose of the exception is
not to safeguard a church’s decision to fire a minister
only when it is made for a religious reason. The
exception instead ensures that the authority to select
and control who will minister to the faithful–a matter
‘strictly ecclesiastical,’. . .–is the church’s alone.”
Hosanna-Tabor, 565 U.S. at 194-95 (quoting Kedroff,
344 U.S. at 119).
A church’s choice of minister, and its choice to part
ways with a minister, is not protected only when it can
articulate a religious rationale that would satisfy a
reviewing court.14 Rather, its relationship with its
minister is held sacred, protected from the scrutiny of
the courts in order to avoid the dangers of interfering
with religious autonomy.
IV.

Because of the Purpose of the Ministerial
Exception, a Minister Must Be Defined by
Virtue of Religious Functions.

The question before the Court is who should be
considered a “minister.” To define the term, it is
important to remember the fundamental interest that
the ministerial exception is designed to protect. That
interest is in the autonomy to make their own religious
decisions about doctrine and structure. Any definition
of minister that confines ministers to particular titles
14

The “prospect of government intrusion raises concern that a
religious organization may be chilled in its free exercise activity.
While a church may regard the conduct of certain functions as
integral to its mission, a court may disagree.” Corp. of Presiding
Bishop of the Church of Jesus Christ of Latter-Day Saints v. Amos,
483 U.S. 327, 343 (1987) (in the context of Title VII’s statutory
religious exemption).

10
or that prefers ministers in particular organizational
structures, such as hierarchical, formal churches, must
be rejected. Likewise, any definition that requires
judicial scrutiny into religious doctrinal questions must
also be rejected.
Justices Samuel Alito and Elena Kagan defined the
term with religious autonomy in mind in their
concurring opinion in Hosanna-Tabor:
Religious autonomy means that religious
authorities must be free to determine who is
qualified to serve in positions of substantial
religious importance. Different religions will
have different views on exactly what qualifies as
an important religious position, but it is
nonetheless possible to identify a general
category of “employees” whose functions are
essential to the independence of practically all
religious groups. These include those who serve
in positions of leadership, those who perform
important functions in worship services and in
the performance of religious ceremonies and
rituals, and those who are entrusted with
teaching and conveying the tenets of the faith to
the next generation.
Hosanna-Tabor, 565 U.S. at 200 (Alito, J., concurring).
As this concurrence identifies, ministers must include
at least the organization’s leaders and teachers,
because these are the people responsible for “worship
services,” performing “religious ceremonies and
rituals,” and “conveying the tenets of the faith to the
next generation.” Id.

11
Thus, who is considered a minister must be
determined by virtue of their religious function as a
leader or teacher, with deference to the religious
organization’s perception of its own beliefs and
structure. Aspects like titles, religious training, and
credentials can provide evidence of religious function,
but are not themselves the end goal and should not be
formulaically required as in the Ninth Circuit opinions
below. Sometimes a title, such as a Roman Catholic
Priest or Nun, may make religious function readily
apparent without need for further inquiry. However,
requiring minsters to hold religious-sounding titles
would pressure religious organizations to operate in
more formal or traditional ways and favors some
organizational structures over others. “Fear of
potential liability might affect the way an organization
carried out what it understood to be its religious
mission.” Amos, 483 U.S. at 336.
Within religious education, such as Catholic
schooling, nothing is more important than who teaches
the faith. As recognized in a question recently posed by
Justice Stephen Breyer during the argument in
Espinoza v. Montana Department of Revenue, “there is
nothing more religious, except perhaps for the service
in the church itself, than religious education. That’s
how we create a future for our religion.” Oral Argument
Transcript at 62:3-6, No. 18-1195 (Jan. 22, 2020). For
this reason, teachers at faith-based schools who teach
religion must be considered ministers. The teachers at
issue in the instant cases teach religion for several
hours per week, and thus easily qualify as ministers.

12
Moreover, all teachers at religious schools are
responsible for conveying the faith in some capacity. As
noted by Professor Laycock, even teachers not
responsible for teaching religious courses are required,
at the very least, to refrain from dis-promoting the
faith or counter-evangelizing because such actions
would run counter to the core mission of religious
schooling.15 Students often look up to their teachers for
moral and spiritual guidance, whether that teacher
teaches English or Bible studies. For these reasons, the
Court should clarify that all teachers at religious
schools are ministers for the purpose of the ministerial
exception. Such a clear holding would protect faithbased schools across the country from needless and
intrusive litigation about who it has chosen to convey
the faith to the next generation.
Finally, requiring religious organizations to prove in
extensive detail how each teacher promotes the religion
in order to qualify for constitutional protection defeats
the purpose of the ministerial exception. Any
formulation that requires extensive scrutiny could have
a particularly severe impact on minority and less15

“Not every religious school can or will insist that every teacher
actively promote religion. But nearly all will at least require every
teacher not to interfere. A religious school might hire a
nonbelieving math teacher, but it is not likely to permit him to
flaunt his nonbelief, to denigrate the church that runs the school,
or to set a bad moral example. Thus, even the nonbelieving math
teacher has some intrinsically religious responsibilities. And . . .
[the line drawing question may lead to] intolerable litigation over
the religious content of each teacher’s instruction. Churches have
strong claims to autonomy with respect to employment of
teachers.” Laycock, Towards a General Theory of the Religion
Clauses, supra, at 1411.

13
understood faiths. See Spencer v. World Vision, Inc.,
633 F.3d 723, 732 n.8 (9th Cir. 2011) (O’Scannlain, J.,
concurring) (noting that questions about what
constitutes religious activity “might prove more
difficult when dealing with religions whose practices do
not fit nicely into traditional categories”). Such
questions would be exceptionally difficult to answer in
the context of certain faith traditions, such as the
Native American traditions at issue in Stately v. Indian
Community School of Milwaukee, Inc., 351 F.Supp.2d
858, 862 (E.D. Wis. 2004). The case involved a school
that mixed the spiritual and cultural heritage of
various Native American tribes as well as other
religions. The court noted that the “line between sacred
and profane does not exist in Native American
cultures,” recognizing “the interconnectedness of
Native American culture and religion.” Id. at 867-868.
There, the court properly held that the First
Amendment foreclosed an inquiry into whether the
school’s actions were religious enough for constitutional
protection.
In short, religious organizations must remain free
to decide internal questions of doctrine and structure
free from government control and interference.
Nowhere is this more important than the decision of
who conveys the faith to the next generation.

14
CONCLUSION
For these reasons, the Court should reverse the
Ninth Circuit decisions below.
Respectfully submitted,
KELLY J. SHACKELFORD
Counsel of Record
HIRAM S. SASSER, III
MICHAEL BERRY
STEPHANIE N. TAUB
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae

February 10, 2020

